IN THE
SUPREME COURT OF THE UNITED STATES
____________
No. ___
____________
PENNEAST PIPELINE COMPANY, LLC,
Applicant,
v.
STATE OF NEW JERSEY; NEW JERSEY DEPARTMENT OF ENVIRONMENTAL PROTECTION;
NEW JERSEY STATE AGRICULTURE DEVELOPMENT COMMITTEE; DELAWARE & RARITAN
CANAL COMMISSION; NEW JERSEY WATER SUPPLY AUTHORITY; NEW JERSEY DEPARTMENT
OF TRANSPORTATION; NEW JERSEY MOTOR VEHICLE COMMISSION,

Respondents.
________________________
APPLICATION TO THE HON. SAMUEL A. ALITO, JR.
FOR AN EXTENSION OF TIME WITHIN WHICH TO FILE
A PETITION FOR A WRIT OF CERTIORARI TO THE
UNITED STATES COURT OF APPEALS FOR THE THIRD CIRCUIT
________________________
Pursuant to Supreme Court Rule 13(5), PennEast Pipeline Company, LLC,
hereby moves for an extension of time of 30 days, to and including March 4, 2020, for
the filing of a petition for a writ of certiorari. Unless an extension is granted, the
deadline for filing the petition for certiorari will be February 3, 2020.
In support of this request, Applicant states as follows:
1.

The United States Court of Appeals for the Third Circuit rendered its

decision on September 10, 2019 (Exhibit 1), and denied a timely petition for rehearing
on November 5, 2019 (Exhibit 2).

This Court has jurisdiction under 28 U.S.C.

§1254(1).
2.

This case concerns whether private companies who hold a Certificate of

Public Convenience and Necessity from the Federal Energy Regulatory Commission

(“FERC”) may exercise the federal eminent domain power Congress delegated to them
under the Natural Gas Act (“NGA”) to bring an action to condemn private property
in which a state asserts an interest. See 15 U.S.C. §717f(h). The Third Circuit held
that Eleventh Amendment immunity bars private companies from doing so, even
though it expressly acknowledged that its holding is contrary to 80 years of practice
under the NGA. See In re PennEast Pipeline Co., 938 F.3d 96 (3d Cir. 2019). If that
decision remains in effect, states will hold an effective veto over critical national
infrastructure projects, “alter[ing] how the natural gas industry has operated for
some time.” Id. at 113. That result is at odds with Congress’ clear intention in the
NGA that natural gas companies exercise the federal eminent domain power to the
same extent as the federal government when constructing FERC-approved pipelines,
which includes the authority to exercise that power by bringing suit with respect to
property in which a state asserts an interest.
3.

Yesterday, FERC announced that it will hold an open meeting on

January 30, 2020, to address a petition that PennEast has filed seeking a declaratory
order from FERC regarding its understanding of the scope of a certificate holder’s
authority under §717f(h). Since that meeting may result in an order that provides
FERC’s views on the question the petition will present, PennEast respectfully seeks
a 30-day extension to ensure time for a thorough and detailed review of the agency’s
meeting and any forthcoming order before filing its petition.
4.

Additionally, between now and the current due date of the petition,

Applicant’s counsel, Paul D. Clement, has substantial briefing obligations, including

2

an opening brief in Snyder’s-Lance, Inc. v. Frito-Lay N. Am., Inc., No. 19-2316 (4th
Cir.) and a petition for a writ of certiorari. Counsel also has a reply brief due on
February 14 in Atlantic Coast Pipeline, LLC v. Cowpasture River Preservation
Association, No. 18-1587, and will be presenting argument in both that case and Seila
Law LLC v. Consumer Financial Protection Board, No. 19-7, on February 24 and
March 3, respectively.
5.

Applicant’s counsel thus requests a modest extension to prepare a

petition that fully addresses the important issues raised by the decision below, that
gives thorough consideration to FERC’s expected open meeting and declaratory order,
and that frames the issues in a manner that will be most helpful to the Court.
WHEREFORE, for the foregoing reasons, Applicant requests that an extension
of time to and including March 4, 2020, be granted within which Applicant may file
a petition for a writ of certiorari.
Respectfully submitted,
PAUL D. CLEMENT
Counsel of Record
KIRKLAND & ELLIS LLP
1301 Pennsylvania Avenue, NW
Washington, DC 20004
(202) 389-5000
paul.clement@kirkland.com
Counsel for Applicant

January 24, 2020

3

